No. 20-8101
OCTOBER TERM, 2020
IN THE SUPREME COURT OF THE UNITED STATES

Joseph Weldon Smith, Petitioner,
V.

Renee Baker, Warden, et al., Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PROOF OF SERVICE
CAPITAL CASE

RENE L. VALLADARES
Federal Public Defender of Nevada
DAVID ANTHONY*
BRADD. LEVENSON
ELLESSE HENDERSON
ROBERT FITZGERALD
Assistant Federal Public Defenders
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)

* Counsel ofRecord

PROOF OF SERVICE
I, David Anthony, an attorney who is authorized to file a Petitioner's Reply
Brief on behalf of Petitioner Joseph Weldon Smith, hereby certify that on this 2nd
day of September, 2021, a copy of Petitioner's Reply Brief was served by United
States mail, first-class postage prepaid, to: Jeffrey M. Conner, Deputy Solicitor
General, State of Nevada, Office of the Attorney General, 100 N. Carson St., Carson
City, Nevada 89701. All parties required to be served have been served.
DATED this 2nd day of September, 2021.
Respectfully submitted,
Rene Valladares
Federal Public Defender of Nevada

~(!!f;

DADA~

NY

CounselofR=

Assistant Federal Public Defender
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
David_Anthony@fd.org
Counsel for Petitioner

2

